Supreme Court, U.S.
FILED

SEP 2 1 2020
OFFICE OF THE CLERK

No.

In The

Supreme Court of tfje ®ntteii States
Jozlyn Thomas,
Petitioner,
v.
James Scott Blevins,
Respondent.
On Petition for a Writ of Certiorari to the
Supreme Court of the State of California

PETITION FOR A WRIT OF CERTIORARI
a
V

Jozlyn Thomas
10 Belem Street
Punta Gorda, Florida 33983
(941) 456-4000

^(^IfvED
SEP 2 9 2020
OFFICE OF THE CUERK

supreme couraftj.s.

1

I. QUESTION PRESENTED
Whether the Fifth and Fourteenth Amendments to
the'United States Constitution serves to void the Order-of
the trial court which approved and settled the amended
account and report of trustee of a family trust as well as
approving the agreement and distribution of the! trust
estate between the trustee and a beneficiary where
Petitioner, as a beneficiary of the trust, was not served with
required notices of the litigation.

2

PRIOR LITIGATION

List of Parties'-

Indicated on Cover Page.

List of Proceedings:
1.

Stanislaus County Superior Court
Case No. 428536
NOTICE OF PETITION AND PETITION TO
REOPEN ESTATE AND VACATE AND SET ASIDE
VOID ORDER APPROVING AND SETTLING
AMENDED ACCOUNT AND REPORT OF
TRUSTEE; ORDER APPROVING AGREEMENT
BETWEEN TRUSTEE AND DAWN MORIN;
ORDER APPROVING DISTRIBUTION PLAN AND
A BLOWING PAYMENT OF TRUSTEE’S FEES.
Date of Entry of Ruling: October 1, 2018

2.

California Fifth District Court of Appeal
Case No. F078333
APPEAL FROM A FINAL ORDER DENYING
APPELLANT’S
MOTION TO VACATE AND
SET ASIDE FINAL RULING THE
SUPERIOR
COURT OF
CALIFORNIA,
COUNTY OF
STANISLAUS
Date of Entry of Ruling: February 6, 2020
j

3.

California Supreme Court
Case No. S261303

3

PRTITION FOR REVIEW
Date of Entry of Ruling: April 22, 2020

4

TABLE OF CONTENTS
4

Question Presented.........................................
1
Prior Litigation................................................. 2-3
Table of Content s.............................................. 4-5
Table of Authorities..........................................
5
Petition for Writ of Certiorari........................
8
Statement of Jurisdiction................................
8
Necessity for Review......................................... 8-9
U.S. Constitutional Provisions and
California State Statutes................................. 7-12
12
Statement of Facts............................................
a. Procedural Facts................................... 12-14
14
b. Substantive Facts.................................
22
Argument...........................................................
a. Violation of the Fifth and Fourteenth
Due Process Clause Voids All
Succeeding Court Determinations,
Decisions and Orders........................... 22-27
b. The Appellate Court was Mistaken
When it Found, in Equity, That
Petitioner should Not be Allowed to
Set the Trial Court Decision Aside
Because (l) Subsequent to Discovery
of the Trial Court Case, She Impliedly
Accepted Trust Disbursement Funds
and, Further, (2) That Reopening the
Case in the Trial Court Setting x4side
Its Order Approving the Settlement
Agreement Would Impair Another
Person’s Substantial Interest of
Reliance on the Judgment.................... 28-29

5

Conclusion

29
APPENDICES

Appendix A.
Appendix B.
Appendix C.
Appendix D
Appendix E,
Appendix F.
Appendix G

•v

la
.....2a-23a
,...24a-61a
,...62a-82a
,...83a-85a
..86a- 102a
103a-1.14a

6

TABLE OF AUTHORITIES
Cases:
County ofSan Diego v. Gorham (2010)
186 Cal.App.4th 1215
8, 24, 25, 26, 28, 29, 30
Garamendi v. Mission Ins. Co. (1993)
15 Cal. App. 4th 1277, 1289,
19 Cal. Rptr. 2d 190..............................

30

Keith G. v. Suzanne H. (1998)
62 Cal.App.4th 853, 862, 72 Cal.Rptr.2d 525

30

Rockefeller Technology Investments
(Asia) VII v. Changzhou SinoType
Technology Co.. Ltd. (2018)
24 Cal.App.5th 115; 233 Cal.Rptr.3d 814

25

Trackman v. Kenney
187 Cal.App.4th 175 (2010)

28

Constitutions:
United States Constitution
Amendment V......................

1, 9

United States Constitution
Amendment XIV..................

1, 9, 10

Statutes Federal:
-r.

28 U.S.C. § 1257

8

7

Statutes State:
California Code of Civil Procedure § 473...
California Code of Civil Procedure § 473.5:.

9, 10, 11, 12
.......... 13, 14

Rules:
U.S. Supreme Court Rules of Court,
Rule 11................................................

8

Other Sources:
11 Witkin, Summary of Cal. Law
(9th ed. 1990) Equity, § 8, p. 684.)

29

8

I. PETITION FOR WRIT OF CERTIORARI
Jozlyn Thomas respectfully petitions for a writ of
certiorari to review the decision of the California Supreme
Court of to deny Ms. Thomas’ Appeals for the California
Fifth District Court of Appeals in this case.
II. STATEMENT OF JURISDICTION
Ms. Thomas Petition for Review to the California
Supreme Court was denied on April 22, 2020. Ms. Thomas
invokes this Court's jurisdiction under 28 U.S.C. § 1257
and under the United States Supreme Court Rules of
Court, Rule 11, having timely filed this Petition for a Writ
of Certiorari within extended time of one hundred fifty
days of the California Supreme Court's ruling.
III. NECESSITY FOR REVIEW
A grant of review preventing the demise of this
pending petition will permit ultimate review of issues by
the California Supreme Court necessary to settle
important questions of interplay between state statutory
law and federal constitutional law. A ruling by this court
may help to determine the required burdens of law and fact
necessary to prevail in cases where the state statutory law
is in conflict with the Constitution, more specifically, the
Fifth and Fourteenth Amendments to the Constitution.
The Appellate Court extensively reviewed the application
of County ofSan Diego v. Gorham (2010) [186 Cal.App.4th
1215] (“Gorham”) x4pp. B at 2a which discussed this issue,
and found that the law expressed by the Gorham court had
continued general application, but distinguished itself
from the instant case. App. B at 18a This Petition

9

specifically seeks a ruling that the impact of the Due
Process Clause of the Fourteenth Amendment cannot be
inhibited b}' a state statute of limitations.
IV. U.S. CONSTITUTIONAL PROVISIONS AND
CALIFORNIA STATE STATUTES
United States Constitution, Amendment V:
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offense to be put twice in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.

United States Constitution, Amendment XIV section V
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;
nor shall any state deprive any person of life, liberty, or
property, with-out due process of law; nor deny to any
person within its jurisdiction the equal protection of the

10

laws.
California Code of Civil Procedure § 473'
473.
(a)

(b)

(1)

The court may, in furtherance of justice, and
on any terms as may be proper, allow a party
to amend any pleading or proceeding by
adding or striking out the name of any party,
or by correcting a mistake in the name of a
party, or a mistake in any other respect! and
may, upon like terms, enlarge the time for
answer or demurrer. The court may likewise,
in its discretion, after notice to the adverse
party, allow, upon any terms as may be just,
an amendment to any pleading or proceeding
in other particulars! and may upon like terms
allow an answer to be made after the time
limited by this code.

(2)

When it appears to the satisfaction of the
court that the amendment renders it
necessary, the court may postpone the trial,
and. may, when the postponement will by the
amendment be rendered necessary, require,
as a condition to the amendment, the
payment to the adverse party of any costs as
may be just.

The court may, upon any terms as may be just
relieve a party or his or her legal representative

11

from a judgment, dismissal, order, or other
proceeding taken against him or her through his or
her mistake, inadvertence, surprise, or excusable
neglect. Application for this relief shall be
accompanied by a copy of the answer or other
pleading proposed to be filed therein, otherwise the
application shall not be granted, and shall be made
within a reasonable time, in no case exceeding six
months, after the judgment, dismissal, order, or
proceeding was taken However, in the case of a
judgment, dismissal, order, or other proceeding
determining the ownership or right to possession of
real or personal property, without extending the sixmonth period, when a notice in writing is personally
served within the State of California both upon the
party against whom the judgment, dismissal, order,
or other proceeding has been taken, and upon his or
her attorney of record, if any, notifying that party
and his or her attorney of record, if any, that the
order, judgment, dismissal, or other proceeding was
taken against him or her and that any rights the
party has to apply for relief under the provisions of
Section 473 of the Code of Civil Procedure shall
expire 90 days after service of the notice, then the
application shall be made within 90 days after
service of the notice upon the defaulting party or his
or her attorney of record, if any, whichever service
shall be later. No affidavit or declaration of merits
shall be required of the moving party.
Notwithstanding any other requirements of this
section, the court shall, whenever an application for
relief is made no more than six months after entry
of judgment, is in proper

12

(c)
(1)

(2)

(d)

Whenever the court grants relief from a
default, default judgment, or dismissal based
on any of the provisions of this section, the
court may do any of the following:
(A)

Impose a penalty of no greater than one
thousand dollars ($1,000) upon an
offending attorney or party.

(B)

Direct that an offending attorney pay
an amount no greater than one
thousand dollars ($1,000) to the State
Bar Client Security Fund.

(C)

Grant other relief as is appropriate.

However, where the court grants relief from a
default or default judgment pursuant to this
section based upon the affidavit of the
defaulting party’s attorney attesting to the
attorney’s mistake, inadvertence, surprise, or
neglect, the relief shall not be made
conditional upon the attorney’s payment of
compensatory legal fees or costs or monetary
penalties imposed by the court or upon
compliance with other sanctions ordered by
the court.

The court may, upon motion of the injured party, or
its own motion, correct clerical mistakes in its
judgment or orders as entered, so as to conform to
the judgment or order directed, and may, on motion

13

of either party after notice to the other party, set
aside any void judgment or order.
California Code of Civil Procedure § 473.5;
473.5.
(a)

When service of a summons has not resulted in
actual notice to a party in time to defend the action
and a default or default judgment has been entered
against him or her in the action, he or she may serve
and file a notice of motion to set aside the default or
default judgment and for leave to defend the action.
The notice of motion shall be served and filed within
a reasonable time, but in no event exceeding the
earlier oh (i) two years after entry7 of a default
judgment against him or her; or (ii) 180 days after
service on him or her of a written notice that the
default or default judgment has been entered.

(b)

A notice of motion to set aside a default or default
judgment and for leave to defend the action shall
designate as the time for making the motion a date
prescribed by7 subdivision (b) of Section 1005, and it
shall be accompanied by an affidavit showing under
oath that the party’s lack of actual notice in time to
defend the action was not caused by his or her
avoidance of service or inexcusable neglect. The
party shall serve and file with the notice a copy of
the answer, motion, or other pleading proposed to be
filed in the action.

(c)

Upon a finding by the court that the motion was
made within the period permitted by subdivision (a)

14

and that his or her lack of actual notice in time to
defend the action was not caused by his or her
avoidance of service or inexcusable neglect, it may
set aside the default or default judgment on
whatever terms as may be just and allow the party
to defend the action.
V. STATEMENT OF FACTS
a.

Procedural Facts-

January 18, 2002: Giles Revocable Trust executed by
Charles Giles and Bobette (Blevins)
Giles. App. B at 2a - 10a.
April 3, 2003:

Charles Giles’ dies.

Dec.31, 2004:

Bobette Giles, dies.

July 24, 2007:

Dawn Morin, a 40% beneficiary of the
Family and Marital Trusts, filed a
Petition for Declaratory Relief in the
Federal Court which was later
dismissed for lack of subject matter
jurisdiction.

April 8, 2008;

Dawn Morin files the initial (“safe
harbor”) Petition for Declaratory
Relief with the Stanislaus County
Superior Court.

April 10, 2008:

Trustee Blevins filed a Petition to
Approve and Confirm Account and
Report of Trustee; Approval of

15

Proposed Distribution and Payment of
Trustee's Fees; Consent of Trustee of
Beneficiaries' Trust
May 13, 2008:

Pursuant to a stipulation between
Blevins and Morin, tile Court ordered
Dawn Morin’s case consolidated with
Trustee Blevin’s case.

June 11, 2008:

Dawn Morin filed the Petition to
Compel Performance of Respondent's
Duties as Trustee or in the
Alternative Remove the Trustee
Pursuant to Probate Code §§ 17200
and 16420

March 2, 2009:

At the Trial Settlement Conference of
the consolidated cases, the parties
entered into a settlement agreement
and the Court issued its Minute Order
Incorporating
the
settlement
agreement pursuant thereto.

March 25, 2009:

James Scott Blevins as Trustee to The
Administrative Trust, The Survivor’s
Trust, The Family Trust and The
Marital Trust filed the Trustee’s
Amended Petition.

April 29, 2009:

Petitioner Dawn Morin filed a Request
for Dismissal with prejudice of her
case.

16

May 5, 2009:

The Court issued an Order pursuant
to the settlement agreement which
was entered on May 6, 2009.

May 6, 2009:

Petitioner Dawn Morin filed a Notice
of Entry of Dismissal and Proof of
Service.

March 26, 2018:

Appellant filed her Petition to Vacate
and Set Aside the May 5, 2009, Order.

May 4, 2018:

Opposition to Appellant’s Petition to
Vacate and Set Aside filed.

Nov. 1, 2018:

Appellant filed Notice of Appeal.

February 6, 2020: California’s Fifth District Court of
Appeals entered its Opinion.
March 17, 2020:

Filed Petition for Review with
California Supreme Court,

April 22, 2020:

California Supreme Court entered its
Denial. App. B at 2a - 10a

b.

Substantive Facts:

Petitioner Jozlyn Thomas (hereafter “Jozlyn” or
“Petitioner”) was born on June 20, 2000. On or about 2006
Jozlyn was constructively abandoned in Wisconsin by her
parents caused by their excessive drug use. In June 2006
when Jozlyn was 6 years old, the Racine County
(Wisconsin) Human Services, took custody of Jozlyn. App.
B at 2a — 10a

17

In that same year, Jozlyn’s maternal grandparents,
Daniel and Mary Thomas, stepped forward and filed for
guardianship of the person and the estate of Jozlyn.
Guardianship was granted by the Wisconsin Court, and
until June 20, 2018, Dan and Mary Thomas raised, Jozlyn
until, on that date, she reached the age of majority.
On January 18, 2002, Charles L. Giles, Jozlyn’s
paternal grandfather and Bobette Giles, Jozlyn’s stepgrandmother created a revocable family trust entitled
Giles Revocable Trust, (hereafter “Trust”). At the time,
Charles had two sons from a former marriage; Charles W.
Giles (deceased) and Joseph Giles (Jozlyn’s father). Bobette
had five (5) children from a former marriage; James Scott
Blevins, William Blevins, Brent Blevins, Bryan Blevins
and Kelly Bergman. Charles and Bobette were the initial
trustees of the Trust created as a revocable inter vivos
trust. Bobette's son, James, was designated as the
successor trustee upon the death of the trustors, Charles
and Bobette.
The Trust specifically provided for some of Charles
L. Giles’ grandchildren They were Charles W. Giles, Jr.,
Anthony L. Giles, Michael Giles and Jozlyn.
Generally, the Trust assets, valued in the millions of
dollars, were supposed to be placed into three different sub­
trusts upon the death of the first spouse. It was Charles
who died first on April 2, 2003.
Upon Charles’ death a marital share trust was
supposed to be created and funded to the extent of the
federal marital estate tax exemption amount in order to
reduce and/or eliminate taxes at the time of the surviving

18

spouse's death. Second, a family share trust was to be
created, which would hold the "community property share"
of the deceased spouse as well as the balance of that
spouse's separate property (if any). Third, a "surviving
spouse" trust was supposed to be created to hold the
surviving spouse's share of the community property as well
as that spouse's separate property (if any). The "surviving
spouse" was to maintain control over all the "assets" in the
surviving spouse trust and upon his or her death, those
assets were to be equally divided between the surviving
spouse's beneficiaries.
Trustor Charles died first, and this is what was
supposed to happen but did not:
Immediately upon Charles’ death, Stoney Dahlberg,
a granddaughter of Charles L. Giles and daughter of
Charles W. Giles, was to receive $1,000. Dawn Morin, who
Charles L. Giles treated as a daughter, but who was not,
was to receive $25,000, and "each living grandchild",
including Jozlyn, was to receive $25,000.
Upon Bobette's death on December 31, 2004, the
following beneficiaries inheriting the balance of the marital
share and family share sub-trusts were: Joseph Giles
($50,000 conditional upon his refraining from the use of
illicit drugs): 10% to the Boys & Girls Club of Manteca,
10% to St. Vincent de Paul's; and 10% to "each living
grandchild". There were four (4) at the time of Bobette's
death including Jozlyn. The "remainder" of the marital
share and family share sub-trusts were left to Dawn Morin.
Thus, Jozlyn was to inherit 10% of the remaining value of
the marital share and family share sub-trusts, and Dawn

19

Morin would receive about 40% of the assets left in those
two sub-trusts.
Janies Blevins, the successor trustee failed to
administer the Trust until, finally, in June 2008, more than
four (4) years after Bobette's death. Dawn Morin filed a
declaratory relief action in Federal Court to secure a.
decision that her petition would not be deemed a “contest"
of the trust's provisions which would invoke the "no contest
clause" of the Trust. This federal action was dismissed.
Dawn Morin then filed a petition seeking "information and
an accounting" from James Blevins, the successor trustee.
This petition also alleged that James Blevins was
improperly attempting to sell trust property to his brother
(another of Bobette's beneficiaries) at an inappropriate
discount. Additionally, there were questions as to the delay
in funding the sub-trusts, as well as questions concerning
some transactions Bobette had undertaken during her
lifetime (with regard to inappropriately distributing Trust
asset money to her children), and the allocation to
Respondent James Blevins of shares of stock in a trucking
company, Mountain Valley Express (“MVE”) owned by the
Trust.
On April 10, 2008, trustee Blevins filed a “Petition
to Approve and Confirm Account and Report of Trustee;
Approval of Proposed Distribution and Payment of
Trustee's Fees; Consent of Trustee of Beneficiaries' Trust.”
On June 11, 2008, Dawn Morin filed a “Petition to
Compel Performance of Respondent's Duties'as Trustee or
In the Alternative Remove the Trustee Pursuant to
Probate Code §§ 17200 arid 16420.”

20

James Blevins as the trustee of the Trust objected to
Dawn Morin's petition, offering “explanations” for each of
the delayed but then challenged actions. After settlement
negotiations, the parties reached an agreement in March
2009. Thereafter, on March 25, 2009, James filed an
amended petition seeking approval of a distribution plan
pursuant to which Dawn Morin received slightly less than
her designated 40% of the two sub-trusts. Notably,
pursuant to the plan, Petitioner also received less than 10%
of the sub-trusts. App. B at 2a — 11a
On April 10, 2008, trustee James Blevins filed his
verified “Petition to xApprove and Confirm Account and
Report of the Trustee! Approval of Proposed Distribution
and Payment of Trustee’s Fees! Consent of Trustee of
Beneficiaries’ Trust [Probate Code § 17200]”. (Hereafter
“Respondent’s Petition to Approve. . .”) App. F
On March 25, 2009, trustee Blevins filed a verified
“Amended Petition to Approve and Confirm Account and
Report of the Trustee! Petition to Approve Agreement
Between Trustee and Dawn Morin! Approval of
Distribution Plan and Payment of Trustee’s Fees! [Probate
Code § 17200]”. (“Respondent’s Amended Petition to
Approve. . .”) App. G at 88a.
It is important to note that Trustee Blevins declares
on page 3, at % 4., lines 2-10 (App. F at 88a) of Respondent’s
Petition to Approve. .. and again on page 3, at % 4., lines 19 of Respondent’s Amended Petition to Approve. . ., that
$25,000.00 had already been distributed to Jozlyn Thomas.
App. G at 105a
This allegation was patently untrue, and
Respondent admits the same when in his “Declaration of

21

James Scott Blevins in Support of Opposition to Petition to
Reopen Estate Administration and to Vacate and Set Aside
Order Approving and Settling Amended Account and
Report of Trustee and Dawn Morin; Order Approving
Agreement Between Trustee and Dawn Morin; Order
Approving Distribution Plan and Allowing Payment of
Trustee's Fees” he declares under penalty of perjury that
the check sent to Dan and Mary Thomas as guardians of
the estate of Jozlyn Thomas was part of the distribution
required after Charles L. Giles’ death. Yet, in his verified
April 10, 2008 petition and his March 25, 2009, amended
petition he declared to the court that this amount had
already been paid.
It is further alleged in the same documents,
Respondent’s Verified Petition on p. 4, *[[ 4, at lines 14-15,
and again in Respondent’s Amended Verified Petition on
p. 4, U 4, at lines 6-7, the Respondent declares:
"At all time herein relevant, the above
beneficiaries are adults. Below is a list
of all beneficiaries and interested
persons who are at all times herein
mentioned
adults,
and
their
addresses: . . ." (Emphasis added.)
App. F at 89a and App. G at 106a.
He then goes on to list the names and addresses of
a group of beneficiaries/interested persons including
Jozlyn herein as:
Jozlyn Thomas
25030 Sandhill Blvd., #4b2
Punta Gorda, FL 33983

22

This was not her address. The address as written is
a vacant lot filled with brush and weeds. Further, the
allegation that all the beneficiaries were adults was also
false. At the time Respondent Trustee Blevins filed the
petition Jozlyn was only 6 years old and was only 8 years
old when Respondent’s Verified Amended Petition was
filed.
Respondent trustee Blevins actually knew both of
the above allegations were false, yet, he was willing to lie
and misrepresent facts to the court in order to push the
settlement agreement through to allow the judge to
approve the settlement agreement between the
Respondent and Dawn Morin. It seems likely the trial court
would not have approved the settlement agreement but for
the lies.
On April 29, 2009, pursuant to the settlement
agreement, Dawn Morin dismissed her petition for
“information and an accounting” with prejudice.
Jozlyn did not receive notice of this litigation. The
trial court found that service on Jozlyn was made by mail
to two "incorrect" addresses. Respondent mailed numerous
notices to Petitioner at the following two addresses^ 25030
Sandhill Boulevard, #4b2, Punta Gorda, Florida 33983 and
25050 Sandhill Boulevard, #4b2, Punta Gorda, Florida
33983. Most were sent to the 25030 address which was a
vacant lot. However, two notices were mailed to the 25050
address at which Jozlyn and her parents resided for a short
period of time, June and July 2003, when Jozlyn was three
(3) years old.
The trial court herein in its final ruling on Jozlyn’s
motion to vacate and set aside argued that the various

23

services of process at the 25050 address were “actually
correct”. Technically the trial court was correct in that in
June and July 2003 when Jozlyn was three years old, she
lived with her parents, who later separated.
It was unreasonable for Dawn Morin, the original
petitioner and James Scott Blevins, the Trustee, to assume
that the six year old Jozlyn still resided at the 25050
address when (l) the petitioner, Dawn Morin, and the
trustee James Scott Blevins, knew that Jozlyn’s father,
Joseph Giles, was housed in the Florida state prison
system, and he was served while in prison. He knew the
correct address for Jozlyn; all they had to do was ask; (2)
they should have served Joseph on behalf of Jozlyn if they
had no knowledge of the Wisconsin guardianship; and (3)
they served Jozlyn at two different addresses. (Basic
reasoning would indicate that they had to know that one of
the addresses was wrong.) This should have prompted
further diligence on the part of Dawn Morin and James
Scott Blevins’ to exert further effort (such as asking
Jozlyn’s father for her address) to ascertain Jozlyn’s
accurate address. They did not do this. Instead, they
continued to serve Jozlyn at the wrong address(es) having
the impact of preventing Jozlyn from asserting her rights
in the trial court proceedings.
As a result, neither Jozlyn nor her grandparents/
guardians had actual knowledge or legal notice of the
existence of the Trust, and it was not until 2009 when the
wife of the Trustee, Dena Blevins, with very little trouble
finding the number, telephoned the grandparents/
guardians did they learn that the Trust, but not Dawn
Morin’s case, existed and Jozlyn was a beneficiary entitled
to distribution of a portion of its assets.

24

Jozlyn turned 18 on June 20, 2018.
VI. ARGUMENT
On April 22, 2020, the California Supreme Court
denied Petitioner’s Petition for Review without comment.
By implication its denial accepted California’s Fifth
District Court of Appeal’s decision to deny Petitioner’s
challenge to the Stanislaus County’s Superior Court’s
denial of Petitioner’s Petition to Vacate and Reopen the
Administration of the Giles Family Trust and approved the
settlement agreement between beneficiary Dawn Morin
and the trustee of the Giles Family Trust. Because, of the
implication by the California that the Fifth District Court
of Appeals was correct, this discussion restricts itself to
whether the Fifth District decided Petitioner’s Petition
correctly
a.

Violation of the Fifth and Fourteenth Due
Process Clause Voids All Succeeding Court
Determinations, Decisions and Orders.

In its Opinion, the Appellate Court first discussed
CCP §473d and §473.5 which places a time limit of two (2)
years within which a movant must move to set aside a void
judgment. (Please see Opinion attached as Exhibit A at pp.
10 - 17.) It discussed the exceptions to the two year limit
rule and how the instant case fails to meet the
requirements of the discussed exception(s). The Appellate
Court further discussed whether extrinsic fraud existed.
(Please see Opinion attached as Exhibit A at pp. 13-17.)
The Appellate Court found that (l) extrinsic fraud was not
present, and (2) the Motion to Vacate was not timely.

25

Without admitting the legal validity of the Appellate
Court findings on these two issues, this petition
respectfully’- challenges the Appellate Court’s application
and ruling found in the case of County of San Diego v.
Gorham (2010) [186 Cal.App.4th 1215] (“ Gorham”). (Please
see Opinion attached as Exhibit A at pp. 17-22.)
Petitioner in her Opening Brief and Reply filed with
the Appellate Court argued that the Due Process Clause of
the Constitution restricts state statutory limitations when
an interested party was not served with process. (Please
see Opening Brief at pp. 12-20.) Petitioner argued that
complete failure of service on an interested party rendered
the ensuing (default) judgment void as opposed to merely
“voidable”. Petitioner cited County of San Diego v. Gorham
(2010) [186 Cal.App.4th 1215] and Rockefeller Technology
Investments (Asia) \'IIv. Changzhou SinoType Technology
Co., Ltd. (2018) [24 Cal.App.5th 115; 233 Cal.Rptr.3d 814]
(Reversed on separate issues.)
However, the Appellate Court addressed County of
San Diego v. Gorham, supra, in depth and found that
though the law expressed in Gorham to be current, Gorham
was distinguishable from the instant case finding that the
false proof of service at issue in Gorham was fraudulent
and though the proof of service in the instant case was
false, there had been no showing that the falsity was
fraudulent. (Please see Opinion attached hereto as Exhibit
A at pp. 17 - 22.)
The Appellate Court premised its ruling denying
Petitioner’s appeal on its interpretation of Gorham, supra,
that, as interpreted, required the element of fraud to be

26

present, to allow an appellate court to vacate a judgment
based on lack of personal jurisdiction. The Appellate Court
stated:
“In essence, Gorham concluded that where a
fraudulent return of service results in a complete failure of
service of process on the defendant whose rights were at
stake, there is a fundamental lack of jurisdiction over that
party and any resulting order or judgment against him or
her is void and may be set aside at any time.'’ (Please see
Opinion attached as Exhibit A, at p. 18.) (Emphasis added.)
In Gorham, it was shown that the process server
falsified the proof of service and that the petitioner therein
had been in prison at the time the process server claimed
to have served him.
However, to find that fraud is a condition precedent
to adjudicating that a judgment is void is a misreading of
Gorham.
The facts in Gorham show that a paternity and child
support summons and complaint were allegedly personalty
served on Gorham in 1998 at an address in San Diego. A
default judgment was entered against him, and he was
ordered to pay monthly child support, plus arrearages. In
2002, a County Department of Child Support Services
worker informed Gorham, of the existence of the default
judgment. Later, Gorham discovered that the process
server had falsified the proof of service of summons and
complaint because Gorham had been incarcerated on the
date of the purported service. Gorham moved to set aside
the 1998 default judgment. The trial court denied the
motion on the ground that since the invalidity was not
apparent on the face of the record, the motion had to be

27

brought within recognized time periods, i.e., either the twoyear outer limit adopted by analogy to Code of Civil
Procedure section 473.5, or the shorter period set forth in
Family Code section 3691, or if premised on extrinsic fraud
then at least within a reasonable time after learning the
facts. The trial court found that Gorham waited too long,
and relief was denied. (Gorham, at pp. 1223-1224.)
Gorham appealed.
The Appellate Court of the Fourth Appellate District
reversed.
It held that:
1.

A judgment is void for lack of fundamental
jurisdiction of the person where there is no
proper service on or appearance by a party to
the proceedings!

2.

Where the judgment is void, there is an
entire absence of power by the court to hear
or determine the case;

3.

A void judgment is vulnerable to direct or
collateral attack at any time;

4.

Whether lack of jurisdiction appears on the
face of the judgment or is shown by evidence
outside of the record, in either case the
judgment is for all purposes a nullity past,
present and future;

5.

All acts performed, including entry of
judgments, under it and all claims flowing out

28

of it are void and are vulnerable to direct or
collateral attack at any time;
6.

Where a party establishes that; he or she has
not been served as mandated by the statutory
scheme, no personal jurisdiction by the court
will have been obtained and the resulting
judgment will be void as violating
fundamental due process;

7.

When a judgment or order is obtained based
on a false return of service, the court has the
inherent power to set it aside, and a motion
brought to do so may be made on such ground
even though the statutory period has run.

Though the Gorham court made the above findings
without the necessity of finding extrinsic fraud, it further
discussed that where extrinsic fraud is found, fraudulent
activity must be present. This, though, was a separate
discussion to find another separate pathway to set aside a
void judgment where extrinsic fraud is present. (Please
Trackman v. Kenney 187 Cal.App.4th 175 (2010).) It is this
separation that was not acknowledged and applied by the
Appellate Court. The foremost thrust of the Gorman
opinion was based on non-fraudulent facts which, still
might deprive a party of his or her due process rights.
The Appellate Court Was Mistaken When It Found,
In Equity, That Petitioner Should Not Be Allowed
To Set The Trial Court Decision Aside Because (l)
Subsequent to discovery of the trial court case, she
impliedly accepted trust disbursement funds and, further,
(2) that reopening the case in the trial court setting aside

b.

29

its order approving the settlement agreement would
impair another person’s substantial interest of reliance on
the judgment.’
However, the Appellate Court, indicated that even if
the legal arguments failed an argument equity would still
prevent vacating the trial court judgment;. It stated that if
the rules at law failed that the equitable rule that says ‘(l)
the party seeking relief, after having had actual notice of
the judgment, manifested an intention to treat the
judgment as valid; and (2) granting the relief would impair
another person’s substantial interest of reliance on the
judgment’ would apply (Please see Opinion at p. 20
referencing Gorham, atp. 1229.)
However, the often quoted legal maxim still having
legal impact says that ‘he who seeks equity must do equity.’
In other words, in all fairness, '[H]e who comes into equity
must come with clean hands.' (Keith G. v. Suzanne H.
(1998) 62 Cal.App.4th 853, 862 [72 Cal.Rptr.2d 525] citing
Garamendi v. Mission Ins. Co. (1993) 15 Cal. App. 4th
1277, 1289 [19 Cal. Rptr. 2d 190], quoting 11 Witkin,
Summary of Cal. Law (9th ed. 1990) Equity, § 8, p. 684.)
It is important to understand that at all times until
2018, Petitioner was a minor ward of Daniel and Mary
Thomas, guardian/grandparents. They did not know or
understand that the superior court case existed until 2017
though it was referred to in two letters from attorney Eric
Nielsen. The appellate court indicated that the content of
these letters were sufficient to put the grandparents on
notice that the case existed.
Nevertheless, bad faith can be shown:

30

1.
All notices required by law to be sent to Petitioner
as a beneficiary to the Trust in the underlying superior
court case were sent to Petitioner at two wrong addresses.
Because of the fact that notices were sent to two wrong
address, they parties had to know that at least one of these
addresses was wrong. Further, the parties could have
contacted Petitioner’s father, Joseph Giles, who, at the
time was imprisoned in Florida but who knew Petitioner’s
address. All they had to do was ask him for her address.
They did not ask.
Shortly after the case was settled, James Scott
Blevins’ wife, Dena, without much trouble was able to
contact Dan Thomas, Petitioner’s grandfather/
grandfather/ guardian, by telephone, to inform him that
Charles Giles had left money to Petitioner. She did not
inform him that the money was ordered disbursed as a
result of a court case settlement .
2.

James Scott Blevins did not bring the underlying3.
case for four (4) years and only did so when Dawn Morin
forced the issue filing suit to force disbursement of her
portion of the trust assets. During that time he was caught
attempting to sell real property owned by the Trust to his
brother at a greatly discounted price.
James Scott Blevins represented to the trial court in
4.
2009 in his Petition to Approve and Confirm Account and
Report of Trustee, Approval of Proposed Distribution and
Payment of Trustee's Fees and, again, in his Amended
Petition to Approve and Confirm Account and Report of
Trustee, Approval of Proposed Distribution and Payment

31

of Trustee's Fees that all beneficiaries were adults. This, of
course, was not true.
Because of the bad faith exhibited by James Scott Blevins,
as above shown, he should not be afforded the equitable
exemption allowed in Gorham.
VI. CONCLUSION
For the foregoing reasons, Petitioner Jozlyn Thomas
respectfully requests that this Court issue a writ of
certiorari to review' the denial Petitioner’s Petition for
Review by the California Supreme Court.
Dated this twentieth day of September 2020.
Respectfully submitted,

Jozlyn Thomas, In Pro Per

